BECKER GALLAGHER
Briefs

and

DONNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of Former
United States Immigration Judges and Members of the
Board of Immigration Appeals as Amici Curiae in
Support of Petitioner in 19-438, Clemente Avelino
Pereida v. William P. Barr, Attorney General, were
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 4th day
of February, 2020:
Brian Philip Goldman
Orrick, Herrington & Sutcliffe LLP
405 Howard Street
San Francisco, CA 94105
(415) 773-5676
brian.goldman@orrick.com

Counsel for Petitioner
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

David G. Keyko
Counsel of Record
Robert L. Sills
Matthew F. Putorti
Stephanie S. Gomez
Jihyun Park

PILLSBURY WINTHROP SHAW PITTMAN

31 West 52nd Street
New York, NY 10019-6131
(212) 858-1604
david.keyko@pillsburylaw.corn

Counsel for Amici Curiae

LLP

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 4, 2020.

DonnaJ. W
Becker Gallagh er e
Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JULIE ANNE KERSHNER
'!otc11·y Public, State of Ohio

\1v Cufilmission Expires
February 21, 2023

